J. David Hadden
dhadden@fenwick.com | 650.335.7684

June 3, 2021

VIA MESSENGER AND ELECTRONIC FILING
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

PersonalWeb Technologies, LLC v. Patreon, Inc., et al., No. 20-1394
Request for Extension of Time

Dear Mr. Harris.
I represent all respondents and intervenors in the above-captioned case. I hereby
request a 60-day extension of time within which to file a response to the petition for a writ of
certiorari in this case. The press of other matters, including trials in Freshhub, Inc. et al. v.
Amazon.com Inc., et al., USDC Western District of Texas, Austin Division, Case No.: 1:19cv-00885-ADA; and In the Matter of Certain Artificial Eyelash Extension Systems, Products,
and Components Thereof, United States International Trade Commission, Washington, D.C.
Inv. No. 337-TA-1226, which makes submission of the opposition difficult absent an
extension. The petition was docketed on April 2, 2021. The Court called for a response on
May 25, 2021, and the response is currently due on June 24, 2021. If extended, the response
would be due on August 23, 2021. Counsel for petitioner does not oppose this request.
Sincerely,
FENWICK & WEST LLP
/s/ J. David Hadden
J. David Hadden
Partner
JDH:ct
cc:
Jeffrey Lamken, counsel for petitioner

